HHS/OIG, Audit - "Review of Touro Infirmarys Reported Fiscal Year 2005
Wage Data," (A-01-08-00513)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Touro Infirmarys Reported Fiscal Year 2005 Wage Data," (A-01-08-00513)
July 14, 2008
Complete
Text of Report is available in PDF format (626 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Touro Infirmary (the Hospital) overstated its salaries by
more than $605,000 and understated its hours by 4,168 in its fiscal year (FY)
2005 Medicare cost report.  Under the inpatient prospective payment system for
acute-care hospitals, CMS adjusts the Medicare base rate paid to participating
hospitals by the wage index applicable to the statistical area in which
hospitals are located.  CMS calculates wage indexes based on hospitals wage
data reported 4 years earlier.  Our correction of the Hospitals errors
decreased the average hourly wage rate from $25.19 to $24.86.  If the Hospital
does not revise the wage data in its FY 2005 cost report, the FY 2009 wage index
for the Hospitals statistical area will be overstated, which will result in
overpayments to all of the hospitals that use this wage index.
We recommended that the Hospital submit a revised FY 2005 Medicare cost report
to the fiscal intermediary and implement procedural improvements.  The Hospital
agreed with our findings.